Page 2 – Mr. Albert Hawkins


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
rochiora@cms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  MEDICAID PAYMENTS MADE 

FOR NONEMERGENCY SERVICES 

PROVIDED TO UNDOCUMENTED 

   ALIENS AND LEGAL ALIENS 

  RESTRICTED TO EMERGENCY 

      SERVICES IN TEXAS





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-06-07-00108

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Section 1903(v) of the Social Security Act states that Federal Medicaid funding is available to
States for medical services provided to aliens who are not lawfully admitted for permanent
residence or otherwise permanently residing in the United States under color of law only when
those services are necessary to treat an emergency medical condition. Further, 42 CFR §
440.255 states that Federal Medicaid funding is available to States for medical services provided
to aliens granted lawful temporary resident status or lawful permanent resident status and who
meet all other requirements for Medicaid only when those services are necessary to treat an
emergency medical condition.

In addition, 42 CFR § 440.255 states that Federal Medicaid funding is available to States for
services provided to pregnant women if a provision is included in the approved State plan.
These services include routine prenatal care, labor and delivery, and routine postpartum care.

In Texas, the Texas Health and Human Services Commission (the State agency) administers the
Medicaid program. Texas Administrative Code Rule 354.2103 uses the definition of an
emergency medical condition contained in Federal regulations. To receive emergency Medicaid
funding in Texas, providers are required to fill out an “Emergency Medical Services Certification
Form” (Form 3038) certifying that the patient had received treatment for an emergency medical
condition. In addition, the State has a list of medical diagnoses, including labor and delivery,
that it considers to be emergency conditions and has an edit (edit 00064) to verify whether the
condition coded on a claim is one that the State considers to be an emergency. Coverage is
limited to the specific dates of service of the emergency, as stated on the Form 3038, and does
not include any service provided after the emergency condition has been stabilized.

During our audit period (October 1, 2004, through September 30, 2005), the State agency
processed 303,266 claims totaling approximately $314.2 million ($191.2 million Federal share)
for medical services and approximately $148,000 ($90,000 Federal share) for prescription drugs
provided to undocumented aliens and legal aliens restricted to emergency services. Of the
$314.2 million total, approximately $218.3 million (70 percent) was for labor and delivery
services.

OBJECTIVE

Our objective was to determine whether the State agency had adequate internal controls to ensure
that, for undocumented aliens and legal aliens restricted to emergency services, Federal
reimbursement was claimed only for those conditions that it defined as emergency services.

SUMMARY OF FINDINGS

The State agency did not have adequate internal controls to ensure that, for undocumented aliens
and legal aliens restricted to emergency services, Federal reimbursement was claimed only for
those conditions that it defined as emergency services. We reviewed 854 medical claims and 44


                                                i
prescription drug claims. For the 854 medical claims, we determined that the services contained
on 629 claims totaling $679,588 met the State’s definition of emergency care. However,
services contained on 193 claims totaling $262,366 ($159,702 Federal share) did not meet the
definition. The State agency did not have the supporting medical documentation for us to
determine whether the services billed on 32 claims totaling $5,903 were for emergency care.
Therefore, we are questioning 193 claims for the following reasons:

   •	 The State agency claimed Federal reimbursement for 170 medical claims for
      nonemergency services totaling $165,494 ($100,736 Federal share) because edit 00064
      was inadequate.

   •	 The State agency claimed Federal reimbursement for 23 claims for nonemergency
      services totaling $96,872 ($58,966 Federal share). These claims were initially denied by
      edit 00064; however, upon appeal, the claims were paid.

The State agency claimed Federal reimbursement for 7,114 claims totaling $147,805 ($89,969
Federal share) for prescription drugs that did not meet the State’s definition of emergency care.

In addition, the edit in place to prevent payment of family planning services claims for
undocumented aliens and legal aliens did not always operate correctly or was manually
overridden to allow services to be claimed as family planning services, which are paid at an
enhanced Federal medical assistance rate of 90 percent. The State agency claimed a total of
$126,178 ($113,560 Federal share) for 350 claims at the enhanced rate of 90 percent. As a result,
the State agency claimed overpayments totaling at least $36,756 (Federal share).

Finally, Form 3038 was not completed for 429 of our sampled claims (48 percent) or was not a
reliable indicator of whether the services provided were for emergency medical services.

RECOMMENDATIONS

We recommend that the State agency:

   •	 adjust the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance
      Program” (Form CMS-64) for the $159,702 (Federal share) claimed for services that did
      not meet the State’s definition of emergency care;

   •	 ensure that officials responsible for reviewing appealed claims for the emergency
      Medicaid program are familiar with Federal and State requirements and have medical
      backgrounds to determine whether claims are for emergency medical treatment;

   •	 adjust the Form CMS-64 for the $89,969 (Federal share) claimed for unallowable
      prescription drugs and for any additional Federal funds paid for prescriptions filled prior
      and subsequent to our audit period;

   •	 adjust the Form CMS-64 for the $36,756 (Federal share) for the 350 claims improperly
      paid at the enhanced Federal medical assistance percentage rate for family planning


                                                 ii
       services, review the claims to determine whether the services provided were for
       nonemergencies and make any additional adjustments as necessary;

   •	 require medical personnel to review medical records prior to certifying on Form 3038
      that emergency medical treatment was provided and ensure that the certified dates are
      limited to the specific dates of the emergency;

    •	 strengthen its policies and procedures, including developing edits, to prevent Medicaid
       payments for nonemergency services provided to aliens; and

    •	 periodically sample and review claims paid for emergency medical services provided to
       aliens and refund any payments made in error.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency said that it will take corrective action for
each of the recommendations and analyze the claims identified in the report for services that
reportedly did not meet the definition of emergency care and refund the Federal share. The State
agency’s comments are included in their entirety as the Appendix.




                                                iii
                                                  TABLE OF CONTENTS 


                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1 


          BACKGROUND ..............................................................................................................1 

              The Medicaid Program……………….. ...............................................................1                                    

              Federal Emergency Medicaid Funding for Aliens……………............................1 

              State Emergency Medicaid Funding for Aliens……………................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2 

               Objective……………. ..........................................................................................2 

               Scope.....................................................................................................................3 

               Methodology .........................................................................................................3 


FINDINGS AND RECOMMENDATIONS .............................................................................4 


         UNALLAOWABLE MEDICAL SERVICES CLAIMS…………………………………4 

              Edit To Deny Nonemergency Medical Services Claims……………………………...4

              Nonemergency Medical Services Claims Paid on Appeal………………………6 


         UNALLOWABLE PRESCRIPTION DRUG CLAIMS………………………………………..7 


          CLAIMS IMPROPERLY PAID AT THE ENHANCED FEDERAL RATE FOR
          FAMILY PLANNING SERVICES……………………………………………………..7


         EMERGENCY MEDICAL SERVICES CERTIFICATION FORM 3038…………………8

         RECOMMENDATIONS………………………………………………………………...8 


          STATE AGENCY COMMENTS………………………………………………………..9 


APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                              INTRODUCTION 


BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Federal Emergency Medicaid Funding for Aliens

Section 1903(v) of the Social Security Act states that Federal Medicaid funding is available to
States for medical services provided to aliens who are not lawfully admitted for permanent
residence or otherwise permanently residing in the United States under color of law only when
those services are necessary to treat an emergency medical condition. Further, 42 CFR §
440.255 states that Federal Medicaid funding is available to States for medical services provided
to aliens granted lawful temporary resident status or lawful permanent resident status and who
meet all other requirements for Medicaid only when those services are necessary to treat an
emergency medical condition.

Section 1903(v) of the Act and 42 CFR § 440.255 define an emergency medical condition as one
manifested by acute symptoms of such severity that the absence of immediate medical attention
could reasonably be expected to result in (1) placing the patient’s health in serious jeopardy, (2)
serious impairment to bodily functions, or (3) serious dysfunction of any body part or organ.
Further, 42 CFR § 440.255 specifies that there must be “sudden onset” of the condition. In
addition, 42 CFR § 440.255 states that Federal Medicaid funding is available to States for
services provided to pregnant women if a provision is included in the approved State plan.
These services include routine prenatal care, labor and delivery, and routine postpartum care.

State Emergency Medicaid Funding for Aliens

In Texas, the Texas Health and Human Services Commission (the State agency) administers the
Medicaid program. Texas’s State plan authorizes payments and extends coverage to (1) aliens
not lawfully admitted for permanent residence or otherwise permanently residing in the United
States under color of law and (2) aliens granted lawful, temporary resident status. Coverage is
limited, however, to care and services necessary for the treatment of an emergency medical
condition (including labor and delivery). An alien granted lawful temporary resident status is
restricted to emergency services during the 5-year period beginning on the date the alien is
granted such status. 1

1
 The 5-year bar applies to legal aliens who entered the United States on or after August 22, 1996, and who are not
eligible for Medicaid for a period of 5 years from the date they entered the country as legal aliens.

                                                         1

Texas Administrative Code Rules 358.105 and 354.2103 state that to qualify for emergency
Medicaid services, undocumented aliens and legal aliens restricted to emergency services must
otherwise be eligible for regular Medicaid services and require emergency medical services after
the sudden onset of a medical condition. The medical condition should include acute symptoms
of sufficient severity, including severe pain, that the absence of immediate medical attention
could reasonably result in (1) placing the patient’s health in serious jeopardy, (2) serious
impairment of bodily functions, or (3) serious dysfunction of any body part or organ.

The “Texas Medicaid Provider Procedures Manual” states that undocumented aliens and legal
aliens restricted to emergency services are eligible only for emergency services, including labor
and delivery. Coverage is limited to the specific dates of service of the emergency and does not
include any service provided after the emergency condition has been stabilized.

The “Texas Works Handbook” states that an application for Medicaid received from an
undocumented alien or legal alien restricted to emergency services cannot be processed unless
the State agency has an “Emergency Medical Services Certification Form” (Form 3038)
completed by the hospital or other medical services provider certifying that the person received
treatment for an emergency medical condition. The Forms 3038 are maintained in the State
agency’s Medicaid eligibility files for each patient.

Texas also has a list of 3,987 diagnoses that it considers to be emergency medical care.
Examples of these diagnoses include abdominal pain, shortness of breath, chest pains, normal
delivery, and altered mental status. The State uses this list to determine whether claims are for
emergency care. The State agency has an edit (00064) that determines whether the diagnosis
codes on claims match the codes on its list of emergencies and denies claims that do not have
emergency diagnosis codes (ERDX).

The State agency claims Federal reimbursement for emergency medical services provided to
undocumented aliens and legal aliens restricted to emergency services on the “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (Form CMS-64).
During our audit period (October 1, 2004, through September 30, 2005), the State agency
processed 303,266 claims totaling approximately $314.2 million ($191.2 million Federal share)
for emergency medical services provided to undocumented aliens and approximately $148,000
($90,000 Federal share) for drugs prescribed for them. Of the $314.2 million total,
approximately $218.3 million (70 percent) was for labor and delivery services.

The State agency contracts with Texas Medicaid and Healthcare Partnership (TMHP) to process
and pay its Medicaid medical service claims and with First Health Services Corporation to
process and pay its Medicaid prescription drug claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency had adequate internal controls to ensure
that, for undocumented aliens and legal aliens restricted to emergency services, Federal
reimbursement was claimed only for those conditions that it defined as emergency services.

                                                 2

Scope

We reviewed a judgmental sample of 854 medical services claims and 44 outpatient prescription
drug claims totaling $949,602. During our audit period, the Federal fiscal year ended September
30, 2005, the State agency processed 303,266 claims totaling approximately $314.2 million
($191.2 million Federal share) for medical services and approximately $148,000 ($90,000
Federal share) for prescription drugs provided to undocumented aliens and legal aliens restricted
to emergency services. We limited our review to the State agency’s internal controls over claims
for services provided to undocumented aliens and legal aliens restricted to emergency services.

We performed our fieldwork at the State agency in Austin, Texas, and at selected medical
providers.

Methodology

To accomplish our objective, we:

    •	 reviewed applicable Federal and State laws and regulations and the State plan;

    •	 reviewed the State agency’s policies and procedures and the program instructions related
       to the payment of claims for emergency medical services provided to undocumented
       aliens and legal aliens restricted to emergency services;

    •	 interviewed State agency personnel, selected medical providers, State Medicaid
       eligibility workers, and private sector workers involved with the eligibility process;

    •	 judgmentally selected 898 claims (854 for medical services and 44 for outpatient
       prescription drugs) totaling $949,602;

    •	 reviewed the Medicaid eligibility files and medical records that supported our sample
       claims to determine whether aliens were restricted to emergency medical services as
       defined by the State and whether the files contained a completed Form 3038; and

    •	 obtained the professional opinion of the State agency Medical Director’s Office medical
       personnel, including a physician and registered nurse, on whether selected claims for
       emergency services were valid based on the supporting medical records, language in
       section 1903(v) of the Act, and the State agency’s definition of emergency services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3

                          FINDINGS AND RECOMMENDATIONS 


The State agency did not have adequate internal controls to ensure that, for undocumented aliens
and legal aliens restricted to emergency services, Federal reimbursement was claimed only for
those conditions that it defined as emergency services. For the 854 medical claims we reviewed,
we determined that the services contained on 629 claims totaling $679,588 met the State’s
definition of emergency care. However, services contained on 193 claims totaling $262,366
($159,702 Federal share) did not meet the definition. The State agency did not have the
supporting medical documentation for us to determine whether the services billed on 32 claims
totaling $5,903 were for emergency care. Therefore, we are questioning 193 claims for the
following reasons:

   •	 The State agency claimed Federal reimbursement for 170 medical claims for
      nonemergency services totaling $165,494 ($100,736 Federal share) because edit 00064
      was inadequate.

   •	 The State agency claimed Federal reimbursement for 23 claims for nonemergency
      services totaling $96,872 ($58,966 Federal share). These claims were initially denied by
      edit 00064; however, upon appeal, the claims were paid.

The State agency claimed Federal reimbursement for 7,114 claims totaling $147,805 ($89,969
Federal share) for prescription drugs that did not meet the State’s definition of emergency care.

In addition, the edit in place to prevent payment of family planning services claims for
undocumented aliens and legal aliens did not always operate correctly or was manually
overridden to allow services to be claimed as family planning services, which are paid at an
enhanced Federal medical assistance rate of 90 percent. The State agency claimed a total of
$126,178 ($113,560 Federal share) for 350 claims at the enhanced rate of 90 percent. As a result,
the State agency claimed overpayments totaling at least $36,756 (Federal share).

Finally, Form 3038 was not completed for 429 of our sampled claims (48 percent) or was not a
reliable indicator of whether the services provided were for emergency medical services.

UNALLOWABLE MEDICAL SERVICES CLAIMS

The State agency claimed $262,366 ($159,702 Federal share) for nonemergency services for
undocumented aliens and legal aliens restricted to emergency services. Of the total, $165,494
($100,736 Federal share) was claimed because edit 00064 did not deny nonemergency services
claims and $96,872 ($58,966 Federal share) was claimed for nonemergency services claims that
were initially denied by edit 00064 but paid on appeal.

Edit To Deny Nonemergency Medical Services Claims

Edit 00064 was inadequate in preventing Medicaid payments for nonemergency medical services
provided to aliens restricted to emergency services for three types of claims: (1) claims for
nonemergency services that included emergency diagnoses; (2) claims in which nonemergency


                                                 4

services were billed on the same claims as emergency services; and (3) claims containing
nonemergency ancillary services.

Nonemergency Services Claims That Included Emergency Diagnoses

The State agency claimed $140,428 ($85,479 Federal share) on 79 claims for nonemergency
services that included an ERDX. Edit 00064 did not deny claims containing nonemergency
services when they contained at least one ERDX. For these claims, we obtained the professional
opinion of the State agency’s Medical Director’s Office, which agreed that the claims were billed
for nonemergency medical services. The following are examples of paid claims that were billed
for nonemergency medical services and that had not been adjusted at the time of our review:

   •	   A patient with cervical cancer received chemotherapy treatments at a hospital, and the
        provider submitted claims with diagnosis codes for chemotherapy and convulsions. The
        patient had a history of a seizure disorder but was not having convulsions at the time of
        the treatments. The diagnosis code for chemotherapy is not an ERDX, but the diagnosis
        code for convulsions is an ERDX. Because the diagnosis code for convulsions is an
        ERDX, the claims were paid. The State agency claimed $19,102 ($11,627 Federal share)
        for services that the patient received during several hospital stays.

   •	 A pregnant individual was admitted to a hospital for alcohol intoxication and was
      released the next day. The provider submitted a claim with a diagnosis of mental
      disorder-antepartum, which is treated as an emergency. However, review of the medical
      records did not indicate that the patient had a mental disorder. The State agency claimed
      $357 ($217 Federal share) for the services that the patient received.

Emergency Service Claims That Included Nonemergency Services

The State agency claimed $20,380 ($12,405 Federal share) on 19 claims for patients who
received emergency medical treatment and nonemergency medical treatment during the same
episode of care. (The dollar figures represent only the amounts for nonemergency services.) We
obtained the professional opinion of the State agency’s Medical Director’s Office, which
determined that the patients had been seen for both emergency and nonemergency medical
treatment during the same episode of care. The following example illustrates an inpatient claim
containing both emergency and nonemergency services:

   •	 A patient who had a history of convulsions, hypertension, asthma, and circulatory
      disease, and who had previously had a colostomy performed, arrived at a hospital
      experiencing abdominal pain. She remained in the hospital for 3 days and received
      computed tomography (CT) scans of her abdomen and pelvis. When her abdominal pain
      subsided, she was discharged. The inpatient claim contained diagnoses for abdominal
      pain, convulsions, hypertension, and a history of circulatory disease, asthma, and
      colostomy status. While abdominal pain was an ERDX, the other diagnoses were not.
      The State agency claimed $2,323 ($1,414 Federal share) for the nonemergency medical
      services.



                                                5

Nonemergency Ancillary Services Claims

The State agency claimed $4,686 ($2,852 Federal share) on 72 claims for nonemergency
ancillary services such as laboratory and radiology tests, ambulance service, and radiation
therapy. The State agency allowed claims for ancillary charges to bypass edit 00064 because
ancillary service providers render a service, which may or may not be related to an emergency
service, rather than diagnose a condition. The State agency did not have other controls in place
to determine whether the claims submitted were for emergency care. For these claims, we
obtained the professional opinion of the State agency’s Medical Director’s Office, which
determined that the medical services were for nonemergencies. The following example
illustrates these types of claims:

   •	 A patient with no acute distress was admitted to the hospital for a repeat lymph node
      biopsy because the results of the first biopsy were inconclusive. The patient remained in
      the hospital for more than 3 weeks while he had various consultations and awaited the
      biopsy results. The State agency claimed more than $716 ($436 Federal share) for the
      patient’s ancillary services, which included x-rays and tissue exams. In addition, the
      State agency claimed $3,299 ($2,008 Federal share) for the patient’s hospitalization.

Nonemergency Medical Services Claims Paid on Appeal

The State agency claimed $96,872 ($58,966 Federal share) for 23 claims that initially were
denied by edit 00064, but then paid after the providers appealed. When a provider appeals a
denied claim, TMHP requests documentation to determine whether the services were for an
emergency. TMHP analysts follow an adjudication process to review the documentation for
emergency circumstances, conditions, or symptoms; e.g., abdominal pain, shortness of breath,
chest pain, fever, vomiting, diarrhea, that may not have been referenced diagnoses in a
submitted claim. If the claim indicates one of these emergency conditions, TMHP processes the
claim for payment. If TMHP continues to deny the claim, the provider may appeal to the State
agency’s Medical Director’s Office.

Regarding the 23 appealed claims, we obtained the professional opinion of the State agency’s
Medical Director’s Office, which determined that the medical services were not for emergency
conditions.

 The following examples illustrate claims paid based on providers’ appeals:

   •	 A paraplegic was admitted to a hospital because his personal care home refused further
      care and he was out of his medications. After 1 month, the hospital was able to place the
      patient in a new personal care home. While in the hospital, the patient received several
      CT scans and other physician services. The individual’s only complaint while in the
      hospital was occasional headaches, which were relieved with Tylenol. The State agency
      claimed $5,534 ($3,369 Federal share) for the inpatient hospital services.

   •	 A patient with cervical cancer received chemotherapy and radiation treatments. The
      State agency’s Medical Director’s Office determined that the claims were for cancer


                                                6

       treatments, which are nonemergency services. The State agency claimed $22,389
       ($13,628 Federal share) for these services.

UNALLOWABLE PRESCRIPTION DRUG CLAIMS

We identified 44 claims totaling $1,744 for nonemergency drugs prescribed by one provider.
We reviewed the medical records that supported the 44 claims and determined that patients were
given prescription medications after they had been treated and stabilized and/or discharged from
the hospital. The State agency’s Medical Director’s Office said that a prescription drug could
not be considered necessary for an emergency if it was provided to a patient after stabilization or
upon discharge. The claims were paid because the State agency did not have controls in place to
prevent nonemergency drugs from being provided to undocumented aliens and legal aliens
restricted to emergency services.

Based on discussions with the State regarding the 44 prescription drug claims, we determined
that all of the prescription drug claims identified during our audit period were outpatient claims
and that the drugs did not meet the State’s definition of emergency care because they were
provided to patients after they had been treated and stabilized and/or discharged from the
hospital. Drugs provided during emergency care are billed on inpatient claims. As a result, the
State agency inappropriately claimed a total of $147,805 ($89,969 Federal share) for 7,114
prescription drug claims.

CLAIMS IMPROPERLY PAID AT THE ENHANCED FEDERAL RATE FOR FAMILY
PLANNING SERVICES

Medicaid pays for family planning services at an enhanced Federal medical assistance rate of 90
percent rather than the standard rate of 60.87 percent. However, undocumented aliens and legal
aliens are not eligible for family planning services or the enhanced rate that is paid for these
services. TMHP has an edit (00008) in place to prevent the payment of family planning services
claims for undocumented aliens and legal aliens. This edit did not always operate correctly or
was manually overridden to allow services to be claimed as family planning services. As a
result, the State agency claimed family planning services at the enhanced medical assistance rate
of 90 percent and received $126,178 ($113,560 Federal share) for 350 claims.

We did not review the medical records supporting these claims to determine whether the services
provided were related to family planning, and therefore not reimbursable. We also did not
determine whether the services qualified as emergencies but were incorrectly coded as family
planning. If these services were for nonemergencies, they were ineligible for reimbursement. At
most, these services should have been claimed at the medical assistance rate of 60.87 percent, or
$76,805 (Federal share). Therefore, the State claimed overpayments totaling at least $36,756
(Federal share), which is the difference between the enhanced rate of 90 percent and the
applicable rate of 60.87 percent. TMHP stated that it would review its policies and procedures
and make any necessary changes to prevent payment for family planning services for
undocumented aliens and legal aliens.




                                                 7

EMERGENCY MEDICAL SERVICES CERTIFICATION FORM 3038

The State agency requires providers to submit Form 3038 for all emergency medical services
provided to undocumented aliens and legal aliens restricted to emergency services prior to
establishing eligibility for emergency Medicaid. The State agency requires that Form 3038
include the date(s) that emergency medical services were provided and the signature of the
attending physician or other designated medical personnel, certifying that the patient was treated
for an emergency condition. The “Texas Medicaid Provider Procedures Manual” states that
coverage is limited to the specific dates of service of the emergency; any service provided after
the emergency condition is stabilized is not payable.

Of the 898 claims in our sample, Form 3038 was not completed for 429 claims (48 percent).
However, we determined that 290 were for allowable emergency services. Of the 469 claims
supported by a Form 3038, 92 were for nonemergency services.

State agency eligibility personnel and medical providers said that they knew of instances in
which providers presigned blank Forms 3038 and provided us with a copy of a presigned form.
Additionally, the individuals who signed the Forms 3038 were not always the individuals who
treated the patients and did not always review the medical records to verify that the patients had
received emergency medical services. The individuals who prepared the forms sometimes
verified only that the patients had received some type of care on the date certified on the forms.
Therefore, the Forms 3038 were not a reliable indicator of whether the services provided were
for emergency services.

Under a new policy implemented during our review, the State agency samples, on a quarterly
basis, claims paid for emergency services provided to aliens to ensure that providers completed a
Form 3038 and that the forms are maintained properly and can be easily accessed for review.

                                    RECOMMENDATIONS

We recommend that the State agency:

   •	 adjust the “Quarterly Medicaid Statement of Expenditures for the Medical Assistance
      Program” (Form CMS-64) for the $159,702 (Federal share) claimed for services that did
      not meet the State’s definition of emergency care;

   •	 ensure that officials responsible for reviewing appealed claims for the emergency
      Medicaid program are familiar with Federal and State requirements and have medical
      backgrounds to determine whether claims are for emergency medical treatment;

   •	 adjust the Form CMS-64 for the $89,969 (Federal share) claimed for unallowable
      prescription drugs and for any additional Federal funds paid for prescriptions filled prior
      and subsequent to our audit period;

   •	 adjust the Form CMS-64 for the $36,756 (Federal share) for the 350 claims improperly
      paid at the enhanced Federal medical assistance percentage rate for family planning
      services, review the claims to determine whether the services provided were for

                                                 8

       nonemergencies, and make any additional adjustments as necessary;

   •	 require medical personnel to review medical records prior to certifying on Form 3038
      that emergency medical treatment was provided and ensure that the certified dates are
      limited to the specific dates of the emergency;

    •	 strengthen its policies and procedures, including developing edits, to prevent Medicaid
       payments for nonemergency services provided to aliens; and

    •	 periodically sample and review claims paid for emergency medical services provided to
       aliens and refund any payments made in error.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency said that it will take corrective action for
each of the recommendations and analyze the claims identified in the report for services that
reportedly did not meet the definition of emergency care and refund the Federal share. The State
agency’s comments are included in their entirety as the Appendix.




                                                9

APPENDIX 

APPENDIX
 Page 1 of 6 

APPENDIX
 Page 2 of 6 

APPENDIX
 Page 3 of 6 

APPENDIX
 Page 4 of 6 

APPENDIX
 Page 5 of 6 

APPENDIX
 Page 6 of 6 

